No. 20-636

In the Supreme Court of the United States
__________________
SHASE HOWSE,
v.

Petitioner,

THOMAS HODOUS, INDIVIDUALLY AND IN HIS OFFICIAL
CAPACITY AS AN EMPLOYEE OF THE CITY OF
CLEVELAND, OHIO; BRIAN MIDDAUGH, INDIVIDUALLY
AND IN HIS OFFICIAL CAPACITY AS AN EMPLOYEE OF
THE CITY OF CLEVELAND, OHIO,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

BRIEF IN OPPOSITION
__________________
ELENA N. BOOP*
Chief Assistant Director of Law
TIMOTHY J. PUIN
Assistant Director of Law
CITY OF CLEVELAND
DEPARTMENT OF LAW
601 Lakeside Ave. E., Rm. 106
Cleveland, Ohio 44114
(216) 664-2800
eboop@clevelandohio.gov
tpuin@clevelandohio.gov
*Counsel of Record
Counsel for Respondents
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
COUNTERSTATEMENT OF
QUESTIONS PRESENTED
The question presented is the following:
Did the Sixth Circuit’s decision affirming
summary judgment adequately apply governing
precedent concerning malicious prosecution and
qualified immunity for Fourth Amendment
excessive force claims, such that there is no
compelling reason for review on a writ of
certiorari?
Petitioner gives a misleading statement of the
questions presented.
Petitioner’s first question
presented is:
Whether the law is clearly established that an
officer cannot arrest a person whom the officer
has no reason to believe committed a crime,
tackle him to effect the arrest, and then strike
him in the neck when he poses no threat to
anyone’s safety.
This improperly converts Petitioner’s initial
encounter with the police on the front porch of his
home from a Terry stop into an arrest and ignores
Petitioner’s admitted active resistance. Petitioner asks
the Court to believe that the police arbitrarily decided
to arrest Petitioner for no reason, then tackled him and
struck him in the neck for good measure. This does not
accurately reflect the undisputed facts on the record.
Petitioner’s second question presented is:

ii
Whether a Fourth Amendment malicious
prosecution claim must be dismissed simply
because one of multiple underlying charges is
supported by probable cause.
Petitioner here seeks to create a circuit conflict
when none exist. The majority below conformed its
holding to the prevailing standard for evaluating
Fourth Amendment malicious prosecution claims, both
in the circuits and in this Court.
Thus, Respondents object to both of the alleged
questions presented by Petitioner.

iii
TABLE OF CONTENTS
COUNTERSTATEMENT OF QUESTIONS
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR DENYING THE PETITION. . . . . . 7
I.

THIS CASE DOES NOT CREATE A CONFLICT
AMONG THE CIRCUIT COURTS . . . . . . . . . . . . . . 7

II.

THE MAJORITY CORRECTLY APPLIED THE LAW
TO PETITIONER’S MALICIOUS PROSECUTION
CLAIMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

III.

THE MAJORITY CORRECTLY APPLIED THE
LAW TO PETITIONER’S EXCESSIVE FORCE
CLAIMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
A. S U M M A R Y J U D G M E N T S T A N D A R D
CORRECTLY APPLIED . . . . . . . . . . . . . . . . . 15
B. Q U A L I F I E D I M M U N I T Y S T A N D A R D
CORRECTLY APPLIED . . . . . . . . . . . . . . . . . 18
1. The majority reviewed the officers’
conduct at the level of specificity
required by this Court. . . . . . . . . . . . . 19

iv
2. Petitioner’s manipulation of the record
cannot change the fact that there was
no obvious constitutional violation
justifying review at an impermissible
level of generality . . . . . . . . . . . . . . . . 21
3. The alleged unconstitutionality of the
officers’ actions was not clearly
established under Sixth Circuit
precedent . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v
TABLE OF AUTHORITIES
CASES
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 23
Ashcroft v. al-Kidd,
563 U.S. 731 (2014). . . . . . . . . . . . . . . . . . . . 13, 20
Barnes v. Ahlman,
140 S. Ct. 2620 (Mem), 2622,
207 L.Ed.2d 1150 (Aug. 5, 2020) . . . . . . . . . . . . . 1
Bates v. Hadden,
576 F. App’x 636 (8th Cir. 2014) . . . . . . . . . 11, 12
Blankenhorn v. City of Orange,
485 F.3d 463 (9th Cir. 2007). . . . . . . . . . . . . . . . 27
Brooks v. City of Winston-Salem, NC,
85 F.3d 178 (4th Cir. 1996). . . . . . . . . . . . . . . . . 10
Caie v. West Bloomfiel Twp.,
485 F. Appx 92 (6th Cir. 2012) . . . . . . . . . . . . . . 26
Campeggio v. Upper Pottsgrove Twp.,
No. 14-1286, 2014 WL 4435396
(E.D. Pa. Sept. 8, 2014). . . . . . . . . . . . . . . . . . . . . 9
City and Cty. of San Francisco v. Sheehan,
575 U.S. 600, 135 S. Ct. 1765 (2015) . . . . . . 19, 27
City of Escondido, Calif. v. Emmons,
139 S. Ct. 500 (2019). . . . . . . . . . . . . . . . 19, 20, 27
Cty. of Los Angeles, Calif. v. Mendez,
137 S. Ct. 1539 (2017). . . . . . . . . . . . . . . . . . . . . 24

vi
District of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . . . . 15, 16, 17, 20
Gerstein v. Pugh,
420 U.S. 103 (1975). . . . . . . . . . . . . . . . . . . . . . . 14
Harrington v. City of Council Bluffs, Iowa,
678 F.3d 676 (8th Cir. 2012). . . . . . . . . . . . . . . . 12
Hernandez v. Mesa,
137 S. Ct. 2003 (2017). . . . . . . . . . . . . . . . . . . . . 17
Hernandez-Cuevas v. Taylor,
723 F.3d 91 (1st Cir. 2013) . . . . . . . . . . . . . . . . . 10
Holmes v. Village of Hoffman Estate,
511 F.3d 673 (7th Cir. 2007). . . . . . . . . . . . . . . . . 8
Hunter v. Bryant,
502 U.S. 224 (1991). . . . . . . . . . . . . . . . . . . . . . . 20
Iacobucci v. Town of Bonneau,
No. 2:18-0152-DCN-BM, 2019 WL 5874210
(D. SC May 29, 2019) . . . . . . . . . . . . . . . . . . . . . 11
Illinois v. Gates,
462 U.S. 213 (1983). . . . . . . . . . . . . . . . . . . . . . . 25
Jackson v. Washtenaw Cty.,
678 F. App’x 302 (6th Cir. 2017) . . . . . . . . . . . . 26
Johnson v. Knorr,
477 F.3d 75 (3d Cir. 2007) . . . . . . . . . . . . . . . . 8, 9
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . 19, 20, 27

vii
Kossler v. Crisanti,
564 F.3d 181 (3d Cir. 2009) . . . . . . . . . . . . . . . 8, 9
Laphan v. Haines,
No. 14-4063, 2016 WL 627246
(E.D. Pa. Feb. 17, 2016) . . . . . . . . . . . . . . . . . . . . 9
Manuel v. City of Joliet, Ill.,
137 S. Ct. 911 (2017). . . . . . . . . . . . . . 8, 12, 13, 14
Marvin v. City of Taylor,
509 F.3d 234 (6th Cir. 2008). . . . . . . . . . . . . . . . 27
Maryland v. Pringle,
540 U.S. 366 (2003). . . . . . . . . . . . . . . . . . . . . . . 15
Morris v. Noe,
672 F.3d 1185 (10th Cir. 2012). . . . . . . . . . . . . . 27
Mullenix v. Luna,
577 U.S. 7 (2015). . . . . . . . . . . . . . . . . . . . . . . . . 20
Ornelas v. U.S.,
517 U.S. 690 (1996). . . . . . . . . . . . . . . . . . . . . . . 25
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 18
Peterson v. Corbett,
No. 3:08-CV-2292, 2012 WL 12864183
(M.D. Pa. Dec. 13, 2012) . . . . . . . . . . . . . . . . . . . . 9
Posr v. Doherty,
944 F.2d 91 (2d Cir. 1991) . . . . . . . . . . . . . . . 8, 10
Raiche v. Pietroski,
623 F.3d 30 (1st Cir. 2010) . . . . . . . . . . . . . . . . . 27

viii
Rodriguez v. City of Cleveland,
439 F. App’x 433 (6th Cir. 2011),
cert den. 566 U.S. 987 (2012) . . . . . . . . . . . . . . . 18
Rudlaff v. Gillispie,
791 F.3d 638 (6th Cir. 2015). . . . . . . . . . . . . . . . 26
Safar v. Tingle,
859 F.3d 241 (4th Cir. 2017). . . . . . . . . . . . . . . . 11
Schulkers v. Kammer,
955 F.3d 520 (6th Cir. 2020). . . . . . . . . . . . . . . . 18
Stanfield v. City of Lima,
727 F. App’x 841 (6th Cir. 2018) . . . . . . . . . 25, 26
Sykes v. Anderson,
625 F.3d 294 (6th Cir. 2010). . . . . . . . . . 10, 13, 14
Terry v. Ohio,
392 U.S. 1 (1968). . . . . . . . . . . . . . . . . . . . . 1, 1822
U.S. v. Arvizu,
534 U.S. 266 (2002). . . . . . . . . . . . . . . . . . . . . . . 16
U.S. v. Butler,
223 F.3d 368 (6th Cir. 2000). . . . . . . . . . . . . . . . 23
U.S. v. Cortez,
449 U.S. 411 (1981). . . . . . . . . . . . . . . . . 15, 16, 25
U.S. v. Foster,
376 F.3d 577 (6th Cir. 2004). . . . . . . . . . . . . . . . 22
U.S. v. Lopez-Arias,
344 F.3d 623 (6th Cir. 2003). . . . . . . . . . . . . . . . 23

ix
Van De Weghe v. Chambers,
569 F. App’x 617 (10th Cir. 2014) . . . . . . . . . . . 11
Wallace v. Kato,
549 U.S. 384 (2007). . . . . . . . . . . . . . . . . . . . 12, 14
White v. Pauly,
137 S. Ct. 548 (2017). . . . . . . . . . . . . . . . . . . 19, 27
Wilson v. Layne,
526 U.S. 603 (1999). . . . . . . . . . . . . . . . . . . . . . . 28
Wright v. City of Philadelphia,
409 F.3d 595 (3d Cir. 2005) . . . . . . . . . . . . . . . . . 9
Zivotofsky ex rel. Zivotofsky v. Clinton,
566 U.S. 189 (2012). . . . . . . . . . . . . . . . . . . . . . . 22
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Ohio Rev. Code § 2903.13(A) . . . . . . . . . . . . . . . . . . . 6
Ohio Rev. Code § 2921.31(A) . . . . . . . . . . . . . . . . . . . 6
RULE
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
INTRODUCTION
Nothing in this case warrants this Court’s review.
Supreme Court Rule 10 provides that a petition “will be
granted only for compelling reasons.” Seeking to offer
a compelling narrative, Petitioner rewrites the record
of his initial encounter with the police on the front
porch of his home to convert it from a Terry stop into
an arrest, and he mischaracterizes the majority’s
mainstream qualified immunity analysis as being a
defiant holding that is contrary to governing authority.
The majority’s decision was an unremarkable
affirmance of summary judgment against a claimant
who incorrectly alleges that his constitutional rights
were violated when he was arrested following his
belligerent refusal to cooperate during an investigatory
stop. No conflict among the circuits is presented here,
nor is there any departure from the accepted and usual
course of judicial proceedings or a decision that
conflicts with relevant decisions of this Court. Sup. Ct.
R. 10.
Consistent with Rule 10, the petition should be
denied because the asserted error essentially “consists
of erroneous factual findings or the misapplication of a
properly stated rule of law.” Even in a close case where
a party feels was wrongly decided, “error correction …
is outside the mainstream of the Court’s functions
and … not among the ‘compelling reasons’ … that
govern the grant of certiorari.” Barnes v. Ahlman, 140
S. Ct. 2620 (Mem), 2622, 207 L.Ed.2d 1150 (Aug. 5,
2020) (citation omitted) (Sotomayor, J., dissenting).

2
The majority’s decision affirming summary
judgment correctly applied governing precedent
concerning qualified immunity for Fourth Amendment
excessive force claims and properly analyzed the
malicious prosecution claims. There is no compelling
reason for review on a writ of certiorari.
STATEMENT OF THE CASE
This case arises from an investigatory stop of a
verbally combative and actively resisting suspect who
interfered with the police officers’ attempt to
investigate a suspected break-in into a home they
mistakenly believed to be vacant. Plaintiff/ Petitioner
Shase Howse contends that Defendants/ Respondents
Thomas Hodous and Brian Middaugh violated his
constitutional rights in doing so.
On the evening of July 28, 2016, Hodous and
Middaugh were on patrol in an unmarked car in the
neighborhood of East 102 Street and St. Clair Avenue
in Cleveland, Ohio, as members of the Gang Impact
Unit of the Cleveland Division of Police. Police were
concerned about a recent increase in felonious assaults
and shootings in the neighborhood, as well as possible
gang-related violence in connection with a nearby
outdoor “vigil” memorial at the location of an earlier
homicide. Hodous Dep., R.25-2, pp. 262-65, 271;
Middaugh Dep., R.25-1, pp. 143-144.
As the officers were driving by a duplex house at
747 E. 102 Street, a man could be seen lingering on the
front porch. Hodous Dep., R.25-2, pp. 282, 291;
Middaugh Dep., R.25-1, pp. 153, 155. The officers were
suspicious because the house looked vacant and

3
because the man looked nervous when he saw them
pass. Hodous Dep., R.25-2, pp. 288-89. The side-byside front doors of the duplex appeared to be boarded
up with bars over them; and there were garbage cans
in the driveway with boards up against them.
Middaugh Dep., R.25-1, pp. 148-49, 151-52. Middaugh
was aware of a problem with criminal trespassing and
illegal activity in abandoned houses in the city.
Middaugh Dep., R.25-1, pp. 135-36. It was getting dark
out, and the area was not well-lit. Hodous Dep., R.252, p. 283; Middaugh Dep., R.25-1, p. 148. The officers
initially kept driving slowly past the house but decided
to investigate further as the suspect continued to linger
on the porch. Hodous Dep., R.25-2, pp. 294, 289-90;
Middaugh Dep., R.25-1, pp. 155, 160.
In fact, the house was not vacant; Howse lived
there with his mother. Howse Dep., R.25-3, pp. 386-87.
Howse was standing on the porch after returning from
a walk to a convenience store. Howse presumably was
on edge after already having been stopped and frisked
by another police officer that evening on his way to the
store. Howse Dep., R.25-3, pp. 401-02. Hodous and
Middaugh were not aware of this previous encounter
with the police. Hodous Dep., R.25-2, p. 276; Middaugh
Dep., R.25-1, p. 166. Based on their experience and
training, and the facts available to them at the time,
they suspected Howse of attempting to break into the
vacant home. Hodous Dep., R.25-2, pp. 311, 314, 336.
They also feared he might be armed. Middaugh Dep.,
R.25-1, p. 160.
Middaugh, who was in the front passenger seat,
asked Howse if he lived there. Howse said yes.

4
Hodous Dep. R.25-2, pp. 292-95, 299. Middaugh then
exited the vehicle and asked Howse, “Are you trying to
break in?” Hodous Dep., R.25-2, p. 303. Howse became
agitated and said something like, “Fuck you. Leave me
the fuck alone.” Hodous Dep., R.25-2, pp. 300-03, 312;
Middaugh Dep., R.25-1, p. 176. Middaugh walked up
to the porch to investigate if Howse lived there.
Hodous Dep., R.25-2, p. 307. Middaugh believed
Howse was squaring up to fight and was growling at
him, so he asked Howse to put up his hands. Howse
refused. Hodous Dep., R.25-2, p. 310; Middaugh Dep.,
R.25-1, p. 177.
According to Howse’s version of the encounter,
Middaugh questioned Howse from the front seat of the
police car after having backed up. Howse testified that
Middaugh said, “Are you sure this is your home?” and
Howse responded, “Yes, this is my home. What the
fuck?” Howse heard Middaugh make some comment to
the effect of Howse having a smart mouth. Howse
testified that Middaugh then exited the car and
continued asking him if he lived there. Middaugh
ordered him to put his hands behind his back and said
that Howse was going to jail, to which Howse repeated
that he lived there and was not doing anything wrong.
Howse Dep., R.25-3, p. 411; Howse Aff., R.33-1, p. 810.
Howse testified that, “at this point I am screaming
at the top of my lungs, ‘I live here, I live here.’” Howse
Dep., R.25-3, pp. 411-12. He also testified that he
refused to put his hands behind his back. Howse Dep.,
R.25-3, p. 413 (“Q. …you admit that he told you to put
your hands behind your back and you refused?
A. …yes, I did”). Howse testified that, after he resisted

5
the officer’s commands, Hodous helped Middaugh grab
him and put him to the floor of the porch. Howse Dep.,
R.25-3, pp. 411-12. Howse testified that when he was
on the floor, he resisted the officers’ efforts to handcuff
him by stiffening his body. Howse Dep., R.25-3, p. 415
(“I was not letting him handcuff me”).
Howse denied assaulting the officers, as they
testified occurred. Hodous Dep., R.25-2, pp. 319-20.
Howse alleged that his head was slammed down onto
the floor of the porch and that Middaugh hit him twice
on the neck with his forearm while he was on the floor.
Howse Dep., R.25-3, p. 412. After Howse’s mother had
arrived, he calmed down and was placed under arrest.
Howse Dep., R.25-3, pp. 417, 423. Howse refused
medical treatment at the scene and did not seek out
medical attention afterwards. Howse Dep., R.25-3, pp.
421-22. Howse testified that he was in jail for “two
nights and three days,” in that he recalls being jailed
on a Thursday night and released on the following
Sunday. Howse Dep., R.25-3, p. 427.
Hodous and Middaugh completed use of force
reports. Use of Force Reports, R.37-2, R.37-4, pp. 866880. The reports state that both officers were wearing
Cleveland Police-issued tactical gear and protective
vests, which would have identified them as law
enforcement officers. Use of Force Reports, R.37-2,
R.37-4, pp. 866, 870.
On July 28, 2016, Middaugh signed a Complaint
against Howse for assault on a police officer.
Complaint, R.29-5, p. 736. On September 7, 2016,
Howse was indicted by a Cuyahoga County Grand Jury
on two felony counts of assault on a police officer in

6
violation of Ohio Revised Code § 2903.13(A) and one
count of obstructing official business in violation of
Ohio Revised Code § 2921.31(A). Indictment, R.25-4,
pp. 448-49. On October 4, 2016, all charges against
Howse were dismissed by the Prosecutor at the
recommendation of Middaugh. Hodous Dep., R.25-2,
pp. 334-35. Middaugh testified that he was motivated
in part by a discussion with Howse’s mother about
Howse’s mental health as well as the desire to avoid
Howse having a felony on his record. Middaugh Dep.,
R.25-1, pp. 216-17.
Howse then sued Hodous and Middaugh under 42
U.S.C. § 1983 for violating his Fourth Amendment
rights, bringing causes of action for excessive force,
malicious prosecution, and state law claims of assault
and battery. He also sued the City of Cleveland,
claiming that the City was responsible for the Fourth
Amendment violations. Complaint, R.2. The district
court granted summary judgment for the defendants,
R.41, which was affirmed by the court of appeals, R.44.
The court below unanimously affirmed summary
judgment for Hodous on the excessive force claim, and
Chief Judge Cole issued a separate dissenting opinion
as to the claims against Middaugh and the malicious
prosecution claim against Hodous. R.44, pp. 940, 937945. This petition then followed as to the claims
against Hodous and Middaugh, but not as to the claim
against the City (or the officers in their official
capacities).

7
REASONS FOR DENYING THE PETITION
I.

THIS CASE DOES NOT CREATE A CONFLICT
AMONG THE CIRCUIT COURTS

The majority’s holding on the malicious prosecution
claim is not in conflict with the Second, Third and
Seventh Circuits. The majority did not expressly reject
the “charge-by-charge” approach (i.e., that probable
cause must have existed for each charge for an officer
to defeat a malicious prosecution claim) or hold that, in
all cases, a malicious prosecution claim fails when
probable cause exists for any one charge against an
arrestee. A closer review of the majority’s opinion and
the decisions of its sister circuits reveals no square
conflict on this narrow issue.
In response to the dissent’s citation to other circuit
court opinions, the majority reasoned as follows:
The contrary conclusions of other circuits don’t
persuade us otherwise. The Second Circuit has
held that each criminal charge must be
supported by probable cause. Otherwise, the
court reasoned, an officer might tack on many
additional (meritless) charges. Tacking on
meritless charges, however, does not change the
nature of the seizure. If hypothetically it were
to change the length of the detention, that would
be a different issue. But the plaintiff has not
presented any evidence that the additional
assault charges caused Howse to suffer longer
detention.
Opinion at n. 3, R.44, p. 933 (internal citations
omitted).

8
To the extent the Second, Third and Seventh Circuit
cases cited by Petitioner rationalize adopting a chargeby-charge analysis because tacking on additional
charges may additionally burden the plaintiff, those
decisions are not in conflict with the majority. Petition,
pp. 28-30. See Posr v. Doherty, 944 F.2d 91, 100 (2d Cir.
1991), Johnson v. Knorr, 477 F.3d 75, 84 (3d Cir. 2007)
and Holmes v. Village of Hoffman Estate, 511 F.3d 673,
682 (7th Cir. 2007). The issue was not addressed below
because that evidence was never presented and the
argument had not been made by Petitioner.
The majority’s decision is not in conflict with the
Seventh Circuit at all. The Seventh Circuit in Holmes,
supra, analyzed the plaintiff’s claim of malicious
prosecution under Illinois state law. No constitutional
analysis was performed to determine whether the
Seventh Circuit recognized a claim of malicious
prosecution in the context of an action brought
pursuant to 42 U.S.C. § 1983. Nor did the court in
Holmes engage in any analysis concerning which
constitutional provision would govern such a claim. Of
note, until this Court’s decision in Manuel v. City of
Joliet, Ill., 137 S. Ct. 911 (2017), the Seventh Circuit
had evaluated unlawful pretrial detention claims
(frequently referred to as malicious prosecution) under
the Due Process Clause rather than the Fourth
Amendment. Id., 916-17.
The Third Circuit has held that the appropriateness
of a charge-by-charge analysis is an intensely factdependent inquiry. Kossler v. Crisanti, 564 F.3d 181,
194 (3d Cir. 2009). Therefore, while some courts in the
Third Circuit follow the narrow holding in Johnson,

9
supra, others follow Wright v. City of Philadelphia, 409
F.3d 595, 604 (3d Cir. 2005), which had held that the
existence of probable cause on one charge disposed of
the plaintiff’s malicious prosecution claims on all the
remaining charges.
In fact, referring to Johnson and Wright, the en
banc panel in Kossler noted, “if one of those two cases
must control for purposes of analyzing the probable
cause element, it would be Wright, not Johnson, that
controls.” Kossler, 194, n. 8; see also Peterson v.
Corbett, No. 3:08-CV-2292, 2012 WL 12864183, *12
(M.D. Pa. Dec. 13, 2012), Laphan v. Haines, No. 144063, 2016 WL 627246, *5, n. 10 (E.D. Pa. Feb. 17,
2016). The en banc panel in Kossler recognized that
the holdings in Wright and Johnson are difficult to
reconcile, but “both illustrate that the analysis of
malicious prosecution claims involving multiple
charges is a fact-intensive one.” Kossler, supra, 194.
As in the case at hand, the Third Circuit’s decision
to conduct a charge-by-charge analysis in Johnson
depended heavily on the unique facts of that case. The
majority’s analysis is therefore not squarely in conflict
with Johnson because both courts’ decisions depended
on the particular facts before them. The majority
below concluded that Petitioner had failed to present
any evidence establishing that he was additionally
burdened by having to defend against the assault
charges, which is entirely consistent with Third Circuit
precedent. See, e.g., Campeggio v. Upper Pottsgrove
Twp., No. 14-1286, 2014 WL 4435396, *9 (E.D. Pa.
Sept. 8, 2014) (“a plaintiff cannot establish a malicious
prosecution claim if the charges for which there was no

10
probable cause did not additionally burden the
plaintiff.”)
The Second Circuit’s decision in Posr, supra, does
not present a square conflict either, albeit for different
reasons.
The Second Circuit applies a hybrid
constitutional/common law analysis to malicious
prosecution claims, requiring actual malice as an
element of a malicious prosecution claim brought
pursuant to 42 U.S.C. § 1983. See Posr, supra, 100.
The Second Circuit in Posr drew upon the danger of an
officer’s ill will as the primary reason for adopting its
charge-by-charge analysis: “an officer with probable
cause as to a lesser offense could tack on more serious,
unfounded charges which would support a high bail or
a lengthy detention, knowing that the probable cause
on the lesser offense would insulate him from liability
for malicious prosecution on the other offenses.” Id.
The Sixth Circuit, along with the First and Fourth
Circuits, does not factor the officer’s intent into its
probable cause analysis in malicious prosecution cases.
Sykes v. Anderson, 625 F.3d 294, 309 (6th Cir. 2010)
(“[i]n the context of malicious prosecution, the Fourth
Amendment violation that generates a § 1983 cause of
action obviates the need for demonstrating malice”); see
also Hernandez-Cuevas v. Taylor, 723 F.3d 91, 102 (1st
Cir. 2013) and Brooks v. City of Winston-Salem, NC, 85
F.3d 178, 183-85 (4th Cir. 1996). Therefore, the
officers’ purported intent of “tacking on more charges”
was irrelevant to the majority’s analysis, where the
focus was on the seizure itself and not the officers’
intent in effecting the seizure. Because Petitioner
presented no evidence that he was additionally

11
burdened by the seizure as a result of the additional
assault charges, his claim failed in the context of the
objective analysis employed by the majority.
Petitioner’s observation that the other circuits “have
implicitly adopted” a charge-by-charge analysis
(Petition, p. 31) is questionable at best. The Tenth
Circuit “hasn’t definitively spoken to the question
either way.” Van De Weghe v. Chambers, 569 F. App’x
617, 620 (10th Cir. 2014) (also noting that, on the issue
of a charge-by-charge analysis, it would be “difficult to
conjure how [the plaintiff] might have cleared the
‘clearly established law’ hurdle” when judges disagree
on a constitutional question.)
The Fourth Circuit has not formally adopted a
specific approach to Fourth Amendment malicious
prosecution claims. See, e.g., Safar v. Tingle, 859 F.3d
241, 246 (4th Cir. 2017) (ultimately declining to
determine whether an officer had a duty to withdraw
warrants upon learning they were meritless because
such duty was not clearly established); see also
Iacobucci v. Town of Bonneau, No. 2:18-0152-DCN-BM,
2019 WL 5874210 (D. SC May 29, 2019) (declining to
follow a charge-by-charge analysis of a malicious
prosecution case because it was not clearly established
in the Fourth Circuit and also noting that, even if the
court were to adopt such an analysis, the plaintiff
presented no evidence to show that he was additionally
burdened by not having the additional charge
dismissed prior to the dismissal of all the other
charges). Finally, the Eighth Circuit does not recognize
malicious prosecution as a constitutional tort
actionable under 42 U.S.C. § 1983. Bates v. Hadden,

12
576 F. App’x 636 (8th Cir. 2014), Harrington v. City of
Council Bluffs, Iowa, 678 F.3d 676 (8th Cir. 2012).
It is notable that Petitioner only started to advocate
for the charge-by-charge analysis of the probable cause
element for the first time after he lost his appeal below.
The arguments advanced here were not presented in
the district court or to the majority panel who made the
decision. In an attempt to create a conflict, Petitioner
now cherry-picks select decades-old cases that have
either no application at all or had evolved to the extent
of contradicting Petitioner’s own arguments, as is
evident from the more recent pertinent cases from the
Third Circuit. In sum, Petitioner has failed to show a
conflict requiring this Court’s review.
II.

THE MAJORITY CORRECTLY APPLIED THE LAW
TO PETITIONER’S MALICIOUS PROSECUTION

CLAIMS

Petitioner contends that the majority failed to follow
this Court’s precedent in Wallace v. Kato, 549 U.S. 384
(2007), when it drew analogies between malicious
prosecution and false arrest claims. Contrary to
Petitioner’s characterization, the majority’s decision
and analysis are consistent with this Court’s treatment
of pretrial detention cases, albeit not termed as
“malicious prosecution.”
This Court has not expressly recognized the
constitutional tort of malicious prosecution as
actionable under 42 U.S.C. § 1983. See, generally,
Manuel v. City of Joliet, Ill., 137 S. Ct. 911, 921-922
(2017). Instead, in Manuel this Court held that “the
Fourth Amendment governs a claim for unlawful

13
pretrial detention even beyond the start of legal
process,” leaving it to the lower courts to determine
both the elements of and the rules associated with an
action seeking damages for such an action. Id. 920.
In his dissenting opinion, Justice Alito, joined by
Justice Thomas, agreed with the Court’s Manuel
holding that the protection provided by the Fourth
Amendment continues to apply after “the start of legal
process,” if the legal process is “understood to mean the
issuance of an arrest warrant” or first court
appearance. Id. at 923. However, in noting that the
Court did not resolve the question of whether a Fourth
Amendment malicious prosecution claim is cognizable
through 42 U.S.C. § 1983, Justice Alito explained that
malicious prosecution claims should not be governed by
the Fourth Amendment at all. Justice Alito reasoned,
in part, that the traditional elements of a tort of
“malicious prosecution,” including the element of
malice, severely mismatch the Fourth Amendment
principles, noting “it is firmly established that the
Fourth Amendment standard of reasonableness is
fundamentally objective.” Id. at 925, quoting al-Kidd,
supra, 736.
The Sixth Circuit has been equally skeptical of
employing the term “malicious prosecution” to describe
claims arising out of unconstitutional pretrial
detentions. Sykes, supra, 310 (“[w]e recognize that
‘designating the constitutional claim as one for
“malicious prosecution” is both unfortunate and
confusing. A better name that would perhaps grasp the
essence of this cause of action under applicable Fourth
Amendment principles might be “unreasonable

14
prosecutorial seizure”’) (citations omitted). The Sixth
Circuit held in Sykes that malice is not an element of a
§ 1983 suit for malicious prosecution. Id.
In drawing analogies between the constitutional
tort of false arrest and the unfortunately named claim
for “malicious prosecution,” the majority correctly
applied the principles that govern both claims. The
Fourth Amendment is the constitutional right deemed
to be violated under both types of claims, the
commonality consistent with this Court’s precedent.
See Manuel, supra, 918 (“pretrial detention can violate
the Fourth Amendment not only when it precedes, but
also when it follows, the start of legal process in a
criminal case”). Both require a finding of probable
cause. See Gerstein v. Pugh, 420 U.S. 103, 114 (1975)
(holding that the Fourth Amendment requires a
judicial determination of probable cause as a
prerequisite to any extended restraint on liberty
following an arrest). Finally, both claims involve the
individual’s right against unreasonable seizure. To
that extent, claims for false arrest and “malicious
prosecution” are more analogous than they are
dissimilar, and the majority did not deviate from this
Court’s analysis in Wallace, which was applied in the
narrow context of accrual of a statute of limitations.
In conclusion, the majority properly applied the law
in analyzing Petitioner’s malicious prosecution claims
and created no conflict with this Court’s precedent or
with its sister circuits. For these reasons, the petition
should be denied.

15
III.

THE MAJORITY CORRECTLY APPLIED THE LAW
TO PETITIONER’S EXCESSIVE FORCE CLAIMS
A. S U M M A R Y J U D G M E N T
CORRECTLY APPLIED

STANDARD

Petitioner argues that the majority misapplied the
summary judgment standard under Rule 56 of the
Federal Rules of Civil Procedure because it failed to
“properly acknowledge” three alleged facts:
(1) Detective Middaugh told Howse “you are going to
jail,” (2) Detective Middaugh struck Howse on the back
of the neck while attempting to handcuff him, and
(3) the events occurred on Howse’s porch. Petition,
p. 13.
In its recitation of facts, the majority accepted
Howse’s version of the facts, specifically acknowledging
that the events took place on Howse’s porch, that he
was struck in the back of his neck and that Detective
Middaugh allegedly stated “you are going to jail.”
Opinion, R.44, pp. 926-27. These facts did not alter the
majority’s legal analysis, but they were never
discounted. In applying qualified immunity, the
majority analyzed the totality of circumstances in light
of what was known to the officers as the events
unfolded rather than surgically dissecting the facts, as
Petitioner suggests should have been done.
In District of Columbia v. Wesby, 138 S. Ct. 577
(2018), this Court criticized the lower court for
“view[ing] each fact in ‘isolation, rather than as a factor
in the totality of the circumstances.’” Id., 588, citing
Maryland v. Pringle, 540 U.S. 366, 372, n. 2 (2003); see
also U.S. v. Cortez, 449 U.S. 411, 417-18 (1981)

16
(applying the totality of circumstances to investigatory
stops).
The “totality of circumstances” analysis
requires courts to consider “the whole picture.” Cortez,
supra, 417.
The Supreme Court’s “precedents
recognize that the whole is often greater than the sum
of its parts – especially when the parts are viewed in
isolation.” Wesby, supra, 588, citing U.S. v. Arvizu, 534
U.S. 266, 277-278 (2002). The process of analyzing the
totality of the circumstances “does not deal with hard
certainties, but with probabilities.” Cortez, supra, 418.
In determining whether a stop is justified by a
reasonable suspicion, the officer can make “inferences
and deductions that might well elude an untrained
person.” Id. The information collected by the officer
“must be seen and weighed not in terms of library
analysis by scholars, but as understood by those versed
in the field of law enforcement.” Id.
In this case, the totality of circumstances leads only
to the conclusion that Middaugh and Hodous had a
reasonable suspicion that a crime was committed or
about to be committed. This is based on their law
enforcement experience as members of the Gang
Impact Unit, their familiarity with the neighborhood
and the high incidence of violent crime in the
neighborhood, coupled with their observation of an
individual lingering on the front porch of what
appeared to be a vacant home, fumbling in front of him
but not entering the home and appearing nervous.
Even after he was asked what he was doing and
responding that he lived there, Howse still did not
enter the home. Once the officers approached Howse in
an attempt to further investigate, he appeared furtive,
nervous and hostile and refused to follow the officers’

17
commands, necessitating his handcuffing. He actively
resisted the officers’ attempts to handcuff him before
and after he was on the ground, as he admitted in his
deposition. The totality of circumstances supported the
officers’ conclusion that Howse’s detention was
warranted by reasonable suspicion and the application
of force was reasonable under the circumstances.
It would also have been contrary to law for the
majority to impute Petitioner’s subjective experience to
what was known to the officers at the time of the
encounter. Twenty/ twenty hindsight has no place in
qualified immunity jurisprudence. The officers’ actions
are to be examined in light of what was known to them
as the events unfolded. Hernandez v. Mesa, 137 S. Ct.
2003, 2007 (2017) (“[f]acts an officer learns after the
incident ends - whether those facts would support
granting immunity or denying it—are not relevant.”).
The officers did not know Howse lived in the house,
which appeared abandoned, and they were not required
to accept Howse’s claim that he lived there, given his
nervousness and agitation and the appearance of the
house. See, e.g., Wesby, supra, 577-78 (officers were not
required to accept a version of the facts from a witness
who was nervous, agitated and evasive.) Objectively,
the officers encountered a suspect who appeared to be
attempting to break into a vacant home; and the
situation quickly escalated as he refused to follow
orders, was swearing and screaming at the top of his
lungs, and was physically resisting attempts to
handcuff him for officers’ safety (all by his own
admission).

18
The majority properly applied the summary
judgment standard in conducting its qualified
immunity analysis by viewing the facts in the light
most favorable to Petitioner but also following this
Court’s mandate in viewing the totality of the
circumstances based on information that was known to
the officers as they encountered the situation.
B. Q U A L I F I E D I M M U N I T Y
CORRECTLY APPLIED

STANDARD

Petitioner manipulates the operative facts of the
case in order reduce the “clearly established” analysis
for application of qualified immunity1 to a level of
generality that has been repeatedly rejected by this
Court. Petitioner attempts to transform the detention
from a Terry stop to a full-blown arrest in order to
argue that Petitioner’s right to be free from use of
excessive force during an arrest which was not
supported by probable cause was so obvious that it was
clearly established. Petition, p. 21.

1

“Qualified immunity is warranted even if a constitutional
violation has occurred if the right violated was not clearly
established.” Rodriguez v. City of Cleveland, 439 F. App’x 433, 44748 (6th Cir. 2011), cert den. 566 U.S. 987 (2012); Schulkers v.
Kammer, 955 F.3d 520, 532-33 (6th Cir. 2020) (a defendant enjoys
qualified immunity unless he or she (1) violated a constitutional
right and (2) the right was clearly established). The Court may
proceed directly to the “clearly established” inquiry. Rodriguez,
supra, at 448. Pearson v. Callahan, 555 U.S. 223, 232-33 (2009).

19
1. The majority reviewed the officers’
conduct at the level of specificity
required by this Court
Petitioner places the “clearly established” standard
by which he believes the officers’ actions ought to have
been judged for purposes of qualified immunity at a
high level of generality, which has been repeatedly
rejected by this Court. See City and Cty. of San
Francisco v. Sheehan, 575 U.S. 600, 135 S. Ct. 1765,
1776 (2015) (“[q]ualified immunity is no immunity at
all if ‘clearly established’ law can simply be defined as
the right to be free from unreasonable searches and
seizures”); White v. Pauly, 137 S. Ct. 548, 552 (2017)
(“[t]oday, it is again necessary to reiterate the
longstanding principle that ‘clearly established law’
should not be defined ‘at a high level of generality’”);
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (noting
that the Supreme Court has repeatedly told courts not
to define clearly established law at a high level of
generality); City of Escondido, Calif. v. Emmons, 139
S. Ct. 500, 503 (2019) (“[t]he Court of Appeals should
have asked whether clearly established law prohibited
the officers from stopping and taking down a man in
these circumstances. Instead, the Court of Appeals
defined the clearly established right at a high level of
generality”).
This Court has repeatedly emphasized that
specificity “is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to determine
how the relevant legal doctrine, here excessive force,
will apply to the factual situation the officer confronts.”

20
Kisela, supra, 1152, quoting Mullenix v. Luna, 577 U.S.
7, 12 (2015) (per curiam); see also Wesby, supra, 590.
To be clearly established, “a legal principle must have
a sufficiently clear foundation in then-existing
precedent.” Wesby, supra, 589. The rule must be
“settled law,” which means it is dictated by “controlling
authority” or “a robust consensus of cases of persuasive
authority.” Wesby, 589-590, quoting Hunter v. Bryant,
502 U.S. 224, 228 (1991) (per curiam) and Ashcroft v.
al-Kidd, 563 U.S. 731, 741-742 (2014).
Additionally, “[u]se of excessive force is an area of
the law ‘in which the result depends very much on the
facts of each case,’ and thus police officers are entitled
to qualified immunity unless existing precedent
‘squarely governs’ the specific facts at issue.” Kisela,
supra, 1153, citing Mullenix, supra, 13 (emphasis
added). “An officer cannot be said to have violated a
clearly established right unless the right’s contours
were sufficiently definite that any reasonable official in
the defendant’s shoes would have understood that he
was violating it.” City of Escondido, Calif. v. Emmons,
139 S. Ct. 500 (2019), citing Kisela, supra, 1153
(emphasis added).
The majority applied the required level of specificity
to the officers’ conduct under the particular
circumstances of this case. Petitioner’s suggestion that
the facts of the case present an obvious constitutional
violation would have required the majority to reject
this Court’s precedent and apply the standard of
conduct at a high level of generality, which has been
specifically rejected by this Court.

21
2. Petitioner’s manipulation of the
record cannot change the fact that
there was no obvious constitutional
violation justifying review at an
impermissible level of generality
Petitioner manipulates the facts in an attempt to
change the parameters of the “clearly established”
standard applicable in this case from permissibly
specific to impermissibly general.
He does so by
transforming what was an investigatory detention into
a full-blown arrest, which would require the higher
burden of showing probable cause rather than
reasonable suspicion, and thus make the “arrest” and
the subsequent use of force an obvious constitutional
violation. Specifically, Petitioner argues that the
alleged “you are going to jail” statement made by
Middaugh, coupled with an attempt to handcuff
Petitioner after he refused to comply, made it obvious
that the investigatory stop of Howse ripened into an
arrest at the moment the officers took him to the
ground.
Petitioner advances that, under these
circumstances, it was clearly established that the
arrest was not supported by probable cause. Therefore,
it purportedly follows, the prohibition against the use
of excessive force during an unlawful arrest was so
obvious that it was clearly established.
There are several problems with this argument.
First, Petitioner never challenged the validity of his
arrest; nor did he state a claim for “false arrest” in his
Complaint or argue this issue in the Courts below.
Complaint, R.2; Opinion, R.44, p. 928. The Court
should not consider arguments not raised below. See

22
e.g., Zivotofsky ex rel. Zivotofsky v. Clinton, 566 U.S.
189, 201 (2012) (ordinarily the Supreme Court does
“not decide in the first instance issues not decided
below”) (citation omitted).
Having failed to challenge the validity of the arrest
in the courts below, Petitioner indirectly attacks the
arrest by reinventing the timeline and changing his
arguments completely.
(Compare Petitioner’s
Appellate Brief wherein he expressly argues that
Howse’s “seizure” was “without the requisite
individualized, reasonable, articulable suspicion that
Shase Howse was armed or had committed or was
about to commit a crime,” referring to the standard for
investigatory stops under Terry v. Ohio, 392 U.S. 1
(1968); App. Br., 6th Cir. No. 19-3418, R.21, 25.)
Nowhere in his appellate brief in the court below does
Petitioner advance the argument that it was not a
Terry stop, after all, but an arrest unsupported by
probable cause.
Second, in response to the same argument made by
Sixth Circuit Chief Judge Cole in his dissenting
opinion, the majority concluded that “[t]he mere act of
handcuffing someone doesn’t transform a stop into an
arrest, … an officer may temporarily handcuff someone
during a Terry stop ‘so long as the circumstances
warrant that precaution.’” Opinion at n. 1, R.44, p. 930
(italics in original), quoting U.S. v. Foster, 376 F.3d
577, 587 (6th Cir. 2004).
A stated intent to arrest someone does not
transform an investigatory stop into an arrest.
Although there is no bright line to distinguish an
investigative detention from an arrest, the Sixth

23
Circuit has historically held that police officers cross
that line when they place a suspect in a police vehicle
for questioning. See U.S. v. Butler, 223 F.3d 368, 375
(6th Cir. 2000) (“[t]he officer's continued detention of
Defendant in the back of the locked patrol car ripened
the investigatory stop into an arrest”); U.S. v. LopezArias, 344 F.3d 623, 627-28 (6th Cir. 2003) (the Sixth
Circuit has long recognized that an investigatory stop
crosses the line and becomes an arrest when a suspect
is placed in a police vehicle); Opinion at n. 1, R.44,
p. 930 (“Of course, the officers hadn’t removed Howse
from the scene when they initially threw him down. So
that would mean the officers didn’t need probable cause
until they removed him from his home and took him to
the station”) (citations omitted).
It follows that, even under Petitioner’s fact scenario,
the officers would not have known that they were
effecting an arrest rather than an investigatory stop or
that Howse’s detention would have to be supported by
probable cause. In other words, it was not clearly
established that Middaugh and Hodous were effecting
an arrest rather than an investigatory stop when they
attempted to handcuff Howse or that the encounter, at
that point, required more than a reasonable suspicion
that a crime was or about to be committed.
Petitioner contends this presents an obvious case,
yet, in light of Sixth Circuit precedent, it is far from
obvious. Petitioner fails to cite any cases which, under
these circumstances, would have put the officers on
notice that their conduct was unconstitutional. See,
e.g., Anderson v. Creighton, 483 U.S. 635, 640-41 (1987)
(the lower court erred in failing to address whether the

24
circumstances with which the defendants were
confronted constituted probable cause and exigent
circumstances; the conclusion that the search was
objectively unreasonable did not “follow immediately”
from the principle that warrantless searches not
supported by probable cause and exigent circumstances
violate the Fourth Amendment; therefore the violation
was not clearly established).
Third, Petitioner’s argument must fail because he
essentially uses a separate Fourth Amendment
violation (the allegedly illegal arrest) as the basis for
liability for the use of force committed during the
allegedly illegal arrest. In Cty. of Los Angeles, Calif. v.
Mendez, 137 S. Ct. 1539, 1543 (2017), this Court was
confronted with the same question:
If law enforcement officers make a “seizure” of a
person using force that is judged to be reasonable based
on a consideration of the circumstances relevant to that
determination, may the officers nevertheless be held
liable for injuries caused by the seizure on the ground
that they committed a separate Fourth Amendment
violation that contributed to their need to use force?
The Court answered that question in the negative,
holding that “[a] different Fourth Amendment violation
cannot transform a later, reasonable use of force into
an unreasonable seizure.” Id., 1544. So it must also
follow that a separate Fourth Amendment violation

25
cannot revive an officer’s liability for a use of force to
which qualified immunity applies.2
3. The alleged unconstitutionality of the
officers’ actions was not clearly
established under Sixth Circuit
precedent
A persuasive line of authority in the Sixth Circuit
justifies the use of force to subdue and control an
actively resisting suspect like Howse. In Stanfield v.
City of Lima, 727 F. App’x 841 (6th Cir. 2018)
(underlying facts taking place in 2013), the Court found
that the officers were entitled to qualified immunity in
performing a takedown of an intoxicated suspect. The
plaintiff argued that he merely lost his balance when

2

Petitioner’s fall back argument, that the detention was not
supported by a reasonable suspicion, is not supported by law. This
Court has previously acknowledged that “[a]rticulating precisely
what ‘reasonable suspicion’ and ‘probable cause’ mean is not
possible.” Ornelas v. U.S., 517 U.S. 690, 695 (1996). “They are
commonsense, nontechnical conceptions that deal with ‘“the
factual and practical considerations of everyday life on which
reasonable and prudent men, not legal technicians, act.’”” Id.,
citing Illinois v. Gates, 462 U.S. 213, 231 (1983) (additional
citations omitted). This Court has described reasonable suspicion
was a “particularized and objective basis” for suspecting the person
stopped of criminal activity. Id. at 696, quoting Cortez, supra, 417418. Here, Middaugh and Hodous encountered an individual in a
high-crime area, in the dark hours of the night, lingering on the
front porch of what looked like a vacant home and appearing
nervous. The suspicion that Howse may have been attempting to
break into the house was entirely reasonable. The suspicion of
criminal activity and the possibility that Howse was potentially
armed was further bolstered by his belligerent behavior and
admitted refusal to cooperate.

26
the officers were putting his hands behind his back and
thus used excessive force in taking him to the ground.
The court’s decision pivoted on the determination
whether the plaintiff’s conduct could be considered
“active resistance.” Id., 847-48. See also Jackson v.
Washtenaw Cty., 678 F. App’x 302, 306-07 (6th Cir.
2017) (firing a taser at an individual suspected of drug
activity who fled into his mother’s house after being
told to stop was objectively reasonable because the
officer had reason to believe the suspect may be armed;
“[w]here a suspect has refused to follow police orders
and may be in possession of a weapon, we have
determined there is no clearly established right to
resist that can defeat qualified immunity”).
In Rudlaff v. Gillispie, 791 F.3d 638 (6th Cir. 2015)
(cited on p. 6 of decision below, R.44, p. 930), the Sixth
Circuit found that use of a knee strike and a taser to
subdue an arrestee who was struggling to keep the
officers from handcuffing him was objectively
reasonable.
Finding pivotal the arrestee’s own
admission that he was trying to prevent the officers
from handcuffing him, i.e. that he was resisting arrest,
the court found the officers’ use of force justified. Id. at
641 (“[a]ctive resistance includes ‘physically struggling
with, threatening, or disobeying officers,” and “it
includes refusing to move your hands for the police to
handcuff you, at least if that inaction is coupled with
other acts of defiance”) (citations omitted). See also
Caie v. West Bloomfiel Twp., 485 F. Appx 92, 96-97 (6th
Cir. 2012) (use of taser in drive-stun mode on a
mentally ill arrestee found to be objectively reasonable,
even though he was not being arrested for a crime; “the
fact that Plaintiff was taken to the ground and

27
arguably ‘subdued’ when [the officer] employed the
taser does not … compel the conclusion that … use of
force was unreasonable” because “there is no dispute
that Plaintiff continued to be uncooperative by actively
resisting the officers’ attempts to secure his arms
behind his back.”)
In Marvin v. City of Taylor, 509 F.3d 234 (6th Cir.
2008), the Sixth Circuit held that the officers acted in
an objectively reasonable manner when they forcefully
twisted the 78-year-old arrestee’s arms behind his
back, acutely rupturing his bicep. The Court found that
the arrestee’s intoxication, coupled with his verbal
refusal to put his hands behind his back and abusive
language justified the officers’ actions. Id. at 248.
Petitioner’s resort to cases from the First, Tenth
and Ninth Circuits in an attempt to create a circuit
split on this issue is to no avail. (Blankenhorn v. City
of Orange, 485 F.3d 463 (9th Cir. 2007); Raiche v.
Pietroski, 623 F.3d 30 (1st Cir. 2010); Morris v. Noe,
672 F.3d 1185, 1198 (10th Cir. 2012), Petition, pp. 2425.) These cases had been decided before City and
County of San Francisco, Calif. v. Sheehan, 575 U.S.
600 (2015), where this Court admonished the circuit
courts against resort to the general Graham factors in
defining the clearly established standard and reversed
the Ninth Circuit’s denial of qualified immunity. See
also Pauly, supra (reversing the Tenth Circuit’s denial
of qualified immunity); Kisela, supra (reversing the
Ninth Circuit’s denial of qualified immunity); Emmons,
supra (reversing the Ninth Circuit’s denial of qualified
immunity). Rather than creating a circuit split, the
Sixth Circuit followed the express directive from this

28
Court that officers’ conduct must be evaluated with the
requisite level of specificity. Petitioner’s manipulation
of facts does not turn this case into one presenting such
an obvious constitutional violation as to overlook this
Court’s precedent.3
In conclusion, the majority correctly applied the
summary judgment standard, viewing the facts in the
light most favorable to Petitioner while considering the
totality of the circumstances and what was known to
the officers as the events unfolded. The majority
correctly applied the clearly established standard by
reviewing the officers’ conduct with the level of
specificity required by this Court and in light of the
Sixth Circuit precedent which has held that officers’
actions in analogous situations did not violate the
Fourth Amendment.

3

Even if this Court were to determine that a conflict among the
circuits exists, the officers would be entitled to qualified immunity
based, in part, on the very existence of the alleged conflict. The
officers should not be expected to be held liable for a violation of a
legal standard that is not only not clearly established, but one that
is subject to varying degrees of disagreement among the circuits.
See, e.g., Wilson v. Layne, 526 U.S. 603, 618 (1999) (“[if] judges …
disagree on a constitutional question, it is unfair to subject police
to money damages for picking the losing side of the controversy”).

29
CONCLUSION
For the foregoing reasons, the petition for writ of
certiorari should be denied.
Respectfully submitted,
ELENA N. BOOP*
Chief Assistant Director of Law
TIMOTHY J. PUIN
Assistant Director of Law
CITY OF CLEVELAND
DEPARTMENT OF LAW
601 Lakeside Ave. E., Rm. 106
Cleveland, Ohio 44114
(216) 664-2800
eboop@clevelandohio.gov
tpuin@clevelandohio.gov
*Counsel of Record
Counsel for Respondents

